UNITED STATES SUPREME COURT
NO: 18-2992

JOSEPH RAIMONDO,
on behalf of himself and all others similarly situated,
Petitioner

V

DENISE PAGE HOOD, U.S. DISTRICT JUDGE, U.S. Employee et al.
Appellees
Appeal from U.S. District Court for the Western District of Missouri- Jefferson City
(2:17-cv-04254-NKL)

MOTION FOR EXTENSION OF TIME FOR FILING CERT OF WRIT

Petitioners Motions for an extension of time in the about case No: 18-2992 to file
the Cert of Writ until Sept. 16 2019 or for the longest extension possible that still
allows for the petition to be docketed for the year of 2019 and if accepted, briefed on
by both sides to be argued before the Court in 2020 reason:
I have personal, and family issues at the forefront going on right now. I'm
overwhelmed by depression, stress, and anxiety, emotionally, and psychologically
exhausted at a time when I'm putting together my 4th Cert of Writ.
Therefore, the Petitioner of this pro se case matter respectfully asks that this
Motion be granted and the extra needed time is allowed.
Respectfully submitted by:
July 8, 2019:

Joseph Raimo, do

JUL 1 6 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

